No..

IN THE
SUPREME COURT OF THE UNITED STATES

MARK LEE WILLIAMS - PETITIONER
vs.
ARIZONA STATE BAR - RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Mark Lee Williams, Pro Se
Petitioner, certify that, according to the word-count tool in Microsoft Word, the
accompanying Petition for Writ of Certiorari contains 8442 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d). The
Petition therefore complies with Supreme Court Rule 33.1(g).
Executed on July 31, 2021
Mark Lee Williams, Esq. SBN 022096
LAW OFFICE OF MARK L. WILLIAMS
969 N. Grand Ave. #1
Nogales, AZ 85621
Tel: (520) 287-4500
Email: markwilliamsesq@vahoo.com
Pro Se Petitioner

RECEIVED
AUG - 4 2021

